                            OFFICE OF THE INSPECTOR GENERAL
                            CORPORATION FOR NATIONAL AND
                                  COMMUNITY SERVICE




                            PRE-AUDIT SURVEY OF THE
                     MISSOURI COMMUNITY SERVICE COMMISSION

                                 OIG Audit Report Number 00- 17
                                      November 5, 1999




                                             Prepared by:

                                           KPMG LLP
                                        2001 M Street N.W.
                                       Washington, DC 20036

                               Under CNS OIG MOU # 98-046-5003
                                  With the Department of Labor
                                  DOL Contract # 5-9-G-8-0022
                                       Task # B9G8V103




This report was issued to Corporation management on March 28, 2000. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than September 28, 2000, and complete its corrective actions by March 28,
2001. Consequently, the reported findings do not necessarily represent the final resolution of the issues
presented.
                                                                                         CORPORATION

                                 Office of Inspector General                             FOR NATIONAL
                       Corporation for National and Community Service

                                   Pre-Audit Survey of the
                           Missouri Community Service Commission
                               OIG Audit Report Number 00-17

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements ofthe Act, the Corporation awards
approximately two-thirds of its AmeriCorps StateINational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of ArneriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that AmeriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series ofpre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including AmeriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

We engaged KPMG LLP to perform the pre-audit survey of the Missouri Community Service
Commission. KPMG 's report, which-follows, includes recommendations for improvements by the
Commission, oversight by the Corporationfor National Service, and a full-scope financial audit of
the Commission by OIG. We have reviewed the report and work papers supporting its conclusions,
and we agree with the findings and recommendations presented. Responses to the report by the
Missouri Commission and the Corporation for National Service are included as appendices C and
D, respectively.


                                                                                      Inspector General
                                                                                      1201 New York Avenue, NW
                                                                                      Washington, DC 2052.5
                                            Pre-Audit Survey of the
                                   Missouri Community Service Commission
                                               Table of Contents



RESULTS IN BRIEF ...................................................................................................................... 1

BACKGROUND .............................................................................................................................
                                                                                                                                     2

OVERVIEW OF THE MISSOURI COMMISSION ..................................................................... 3

OBJECTIVES. SCOPE. AND METHODOLOGY ........................................................................3

FINDINGS AND RECOMMENDATIONS ...................................................................................
                                                                                                             5

APPENDIX A. COMMISSION FUNDING: 1996-97 THROUGH 1998-99 .............................A .1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
                                                                                                                          B .1
   METHODOLOGY ................................................................................................................

APPENDIX C. MISSOURI COMMUNITY SERVICE COMMISSION RESPONSE ...............C .1

APPENDIX D. CORPORATION RESPONSE ........................................................................D .1
            2001 M Street, N.W.
            Washington, DC 20036




November 5, 1999



Inspector General
Corporation for National and Community Serv~ce:

At your request, KPMG performed a pre-audit survey of the Missouri Community Service
Commission (Commission). The primary purpose of this survey was to provide a preliminary
assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission;
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its ArneriCorps
grants:

    The Commission administers an open, competitive process to select national service
    subgrantees. However, we identified areas for improvement related to (1) the lack of
    assessment of applicants' financial systems during the selection process, and (2) the lack of
    formal conflict of interest statements.

    The Commission has developed control policies and procedures to administer the
    Corporation's grant funds. However, as discussed in the Findings and Recommendations
    section of this report, the Commission did not effectively monitor adherence to these policies
    and procedures and perform necessary follow up procedures with subgrantees.

    The Commission has established controls to evaluate and monitor subgrantees. However, the
    Commission's on-site monitoring procedures do not always function as intended and do not
    include (1) review of Office of Management and Budget (OMB) Circular A-133 reports or
    other audit reports fiom subgrantees or (2) review of subgrantees' financial systems and
    expense documentation.
    The Commission has adequate controls in place to provide reasonable assurance that training
    and technical assistance is made available and provided to subgrantees.

The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.

Based on our preliminary assessments, we recommend the performance of a full scope audit at
the Commission for program years 1995-96 through 1998-99, with a focus on grant
administration and subgrantee monitoring.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Missouri Community Service Commission.


Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, ArneriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its ArneriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide Amencorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to ArneriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.
Mm
 We were also to report on the recommended scope of additional audit procedures to be
  performed at the Commission.

  Our survey included the following procedures:

      reviewing applicable laws, regulations, grant provisions, the Corporation's State Commission
      Reference Manual, and other information to gain an understanding of legal, statutory and
      programmatic requirements;

      reviewing OMB Circular A-133 reports and current program year grant agreements for the
      Commission;

      obtaining information from Commission management to complete flowcharts documenting
      the hierarchy of AmeriCorps grant funding for program years 1996-97, 1997-98 and 1998-
      99; and

      performing the procedures detailed in Appendix B over the Commission's internal controls,
      selection of subgrantees, administration of grant funds, evaluation and monitoring of grants,
      and the technical assistance process.

  As part of the procedures performed, we documented and tested internal controls in place at the
  Commission using inquiries, observations, and examination of a limited sample of source
  documents. Finally, we summarized the results of our work to develop the findings and
  recommendations presented in this report. We discussed all findings with Commission
  management during an exit conference on November 5, 1999.

  Our procedures were performed in accordance with Government Auditing Standards issued by
  the Comptroller General of the United States. We were not engaged to, and did not, perform an
  audit of any financial statements, and the procedures described above were not sufficient to
  express an opinion on the controls at the Commission, or on its compliance with applicable laws,
  regulations, contracts and grants. Accordingly, we do not express an opinion on any such
  financial statements, or on the Commission's controls or compliance. Had we performed
  additional procedures, other matters might have come to our attention that would have been
  reported to you.

  We provided a draft of this report to the Commission and the Corporation. The Commission's
  and the Corporation's responses to our findings and recommendations are included as Appendix
  C and Appendix D, respectively.
J      m
    Findings and Recommendations

    Selecting Subgrantees

    According to A Reference Manual for commission Executive Directors and Members, section
    3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
    selecting applicants for potential funding."

    The Commission administers an open, competitive process to select national service subgrantees.
    Selection officials receive a conflict of interest information sheet and an instruction package and
    use a standard form to evaluate each applicant. However, we identified the following areas for
    improvement within the selection process.

            Assessment of ,4pplicants' Financial Systems during the Selection Process

    Selection officials do not consider the adequacy of the applicants' financial systems durmg the
    Commission's subgrantee selection process. The application form provided by the Corporation
    does not specifically address the applicant's financial systems. Commission selection procedures
    do not require Commission personnel to request from the applicants additional information
    related to their financial systems. As a result, grant funds may be provided to an organization
    that does not have financial systems in place to properly account for those funds or is unable to
    ensure compliance with related grant requirements.

    According to A Reference Manual for Commission Executive Directors and Members, section
    4.2, Commissions are responsible for maintaining "appropriate financial management systems to
    disburse funds and track Commission and program expenditures according to legal and grant
    requirements." In order to meet this responsibility, the Commission must be able to assure itself
    that subgrantees have systems in place to accurately track expenditures, since this information
    forms the basis of a majority of Commission expenditure reporting.

            Lack of Formal Conflict of Interest Statements

    According to A Reference Manual for Commission Executive Directors and Members, section
    3.6, "State Commissions should strive to achieve the greatest objectivity and impartiality
    possible in the review and selection of grantees in the state.. .Any time a voting Commission
    member is not, or does not appear to be, for any reason, impartial to a program that is applying to
    the Commission for funding, the member has a conflict of interest." One way to help ensure this
    objectivity is to require selection officials (i.e., Commission members and peer reviewers) to
    annually certify in writing that they have no conflicts of interest.

    Although Commission staff distributes relevant conflict of interest guidance to selection
    officials, the Commission does not have policies and procedures that require these officials to
    annually sign conflict of interest statements certifying that they have no conflicts. If selection
    officials have conflicts of interest but do not report them, the fairness of the selection process
    may be impaired.
       Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
subgrantee selection process as follows:

   Require applicants to provide information related to their financial systems, and review this
   information during the subgrantee selection process. The review should focus on assessing
   whether the financial systems, as described, would provide reasonable assurance that
   applicants will be able to properly account for grant funds and comply with related grant
   requirements.

   Develop and implement procedures that require selection officials to sign conflict of interest
   statements annually after discussion of related issues with Commission staff and review of
   written guidance.


Administering Grant Funds

As part of the grant administration process, "Commissions must evaluate whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensure follow
through on issues of non-compliance" ( A Reference Manual for Commission Executive Directors
and Members, section 4.3).

The Commission's personnel have adequate skills and experience to manage and administer
Corporation grant hnds. However, the number of Commission subgrantees has doubled since
the 1996-97 program year, and the Commission appears to be having difficulty handling the
workload with only three full-time employees. Overall, the Commission's staff has developed
control policies and procedures to administer the Corporation's grant funds. However, as
discussed below, staff did not effectively monitor the policies and procedures and perform
necessary follow up procedures.

From the inception of the ArneriCorps program at the Commission through the end of the 1995-
96 program year, the Commission disbursed funds to subgrantees evenly throughout the year.
However, the Commission corrected this noncompliance with cash management requirements in
program year 1996-97 by implementing procedures to disburse funds to subgrantees on a
reimbursement basis.

We identified the following areas for improvement related to the evaluation of subgrantee
compliance with reporting and grant requirements.

        Lack of Review of Matching and Earmarking Requirements

Commission procedures require that subgrantees submit a monthly repodreimbursement request,
which is to include documentation for the subgrantees' matching funds. During the 1997-98
program year, one of two subgrantees tested did not include evidence of its matching funds on its
monthly repodreimbursement request to the Commission, and Commission personnel did not
follow up timely with the subgrantee to obtain the missing information. Therefore, the
Commission was unable to ascertain the subgrantee's compliance with the applicable matching
rn
 requirements. This subgrantee did not receive funding in the 1998-99 program year, and the
  Commission withheld payment of the subgrantee's last invoice because of the failure to submit
  its matching funds information. Also in the 1997-98 program year, the other subgrantee tested
  utilized greater than 5% of its federal funds for administrative purposes, which did not comply
  with program requirements. However, the Commission did not withhold payment in excess of
  the 5% threshold.

          Timeliness of Receipt of Financial Status Reports (FSR)

  The Commission does not date-stamp FSRs from subgrantees as they are received. Many of the
  FSRs appear to be received later than the 2othday following the end of the quarter, but the only
  evidence of when they were submitted is the date associated with the Program Director's
  signature. Therefore, the Commission can not routinely verify if these documents are submitted
  timely in compliance with the grant agreement. As a result, subgrantee FSRs may be submitted
  late, creating difficulty for the Commission when attempting to prepare and submit its FSR to the
  Corporation on a timely basis.

  In program year 1999-2000, the Commission began utilizing the Web Based Reporting System
  which electronically records the date subgrantees submit their FSRs to the Commission. As a
  result, no recommendation is required at this time related to date stamping of FSRs.

          Missing FSRs, Supporting Documentation for Expenditures and Programmatic Progress
          Reports

  Some of the FSRs for the 1995-96 program year from the two subgrantees we tested could not be
  located by the Commission staff. Additionally, the Commission had not obtained the last four
  FSRs due from another subgrantee during program years 1997-98 and 1998-99. The
  Commission performed a site visit to this subgrantee during our fieldwork, and communicated
  the need to submit FSRs on a timely basis.

  In addition to FSRs, the Commission requires the subgrantees to submit, at least on a quarterly
  basis, a detailed expenditure listing to support program and matching expenditures. However,
  Commission personnel did not enforce this requirement during the 1998-99 program year and did
  not follow up with subgrantees at a later date to obtain this documentation. Without FSRs and
  documentation to support the expenditures on the FSRs, the allowability of expenditures reported
  could be in question.

  Additionally, we noted during our testing that several subgrantees failed to submit program
  progress reports. Without regular reporting regarding progress made on the program objectives,
  the Commission cannot assess whether a subgrantee program objectives are being achieved.

          Noncompliance with the Suspension and Debarment Compliance Requirement

   The Commission does not currently have procedures in place to ensure that its subgrantees have
   not been suspended or debarred by the federal government as required by the Office of
   Management and Budget (OMB) Circular A-1 33 Compliance Supplement, nor does it monitor
   whether its subgrantees have procedures in place to ensure that organizations with which they
   conduct business have not been suspended or debarred by the federal government. If the
   Commission or one of its subgrantees has awarded or contracted federal funds to an organization
Jmm
 that has been suspended or debarred, the Commission and/or its subgrantee would not be in
 compliance with OMB Circular A-1 33 and its federal funds could be at nsk.

         Recommendations

 We recommend the Commission focus on measures for improving the effectiveness of its grant
 administration process as follows:

     Develop an improved process for the timely review of and comprehensive review of monthly
     reports submitted by subgrantees. Consider developing a checklist to be used by the
     reviewer to provide reasonable assurance that all required information has been reported and
     verified for compliance with grant agreements. The completed checklist could then be
     submitted to a second person for review and approval. Such a procedure would enhance the
     review and monitoring procedures associated with matching funds and earmarking
     information, and serve as a remmder for communicating instances of noncompliance to
     subgrantees as soon as they are ~dentified,and for following-up to ensure corrective action
     has been taken.

      Develop and implement formal procedures to withhold payments to subgrantees when they
      fail to submit required information and reports (e.g., matching funds information, FSRs,
      supporting documentation for expenditures and program progress reports) by the specified
      deadlines. Additionally, when the Commission receives the subgrantees' supporting
      documentation related to program and matching expenditures, this documentation should be
      reviewed and agreed to the subgrantees' FSRs and monthly reportlreimbursement requests
      before the Commission disburses funds to the subgrantees. Finally, the Commission should
      continue to emphasize, during training sessions and site visits, the importance of submitting
      the required information and reports timely.

      Include in the subgrantee application materials a suspension and debarment certification to
      be signed by a representative of the subgrantee certifying that the subgrantee has not been
      suspended or debarred by the federal government. Additionally, during training sessions
      provided to subgrantees, the suspension and debarment compliance requirement should be
      thoroughly discussed, and during site visits, Commission personnel should verify related
      procedures have been put in place.


 Evaluating and Monitoring Subgrantees

 As noted above, the Commission is responsible for evaluating whether subgrantees comply with
 legal, reporting, financial management and grant requirements and ensuring follow through on
 issues of noncompliance. The Commission has established controls to evaluate and monitor
 subgrantees, which include reviewing program and financial reports and scheduling three site
 visits for each subgrantee during the 15-month grant period. Commission personnel are required
 to notify the subgrantees of the results of these site visits, including strengths, weaknesses,
 concerns, recommendations, and any necessary follow-up requirements

 However, we identified the following areas for improvement related to the evaluation and
 monitoring of subgrantees.
        Review of Subgrantees ' Financial Systems and Expense Documentation During Site
        Visits

Commission personnel do not review the subgrantees' financial systems and expense
documentation during site visits. As a result, control weaknesses or instances of material
noncompliance related to the subgrantees' financial systems and expense documentation of
which the Commission is not aware might exist.

        Maintenance of Supporting Documentation and Documentation of Records Obtained and
        Reviewed During Site Visits

The Commission utilizes surveys in conducting its Member site visits, and a comprehensive
checklist of all AmeriCorps grant provisions in conducting the record review site visits.
However, the Member surveys are not maintained, which could prove problematic if Members
claim that they informed the Commission of an issue in a survey and the original survey is not
available to the Commission for review. Additionally, while the record review site visit checklist
is maintained, it does not identify what documents the reviewer tested. Therefore, subsequent
reviewers would be unable to examine the same documentation if a question arose about the
results of the test.

        Review of OMB Circular A-133 Reports or Other Audit Reports from Subgrantees

OMB Circular A-133 Compliance Supplement, April 1999, Part 6 - Internal Control suggests
that review of and follow-up on subgrantees' audit reports is a key component of a program to
monitor subgrantees' compliance with federal grant requirements. However, as part of the
Commission's monitoring process, the Commission does not consistently require its subgrantees
to submit OMB Circular A-133 or other audit reports, if applicable, and the Commission does not
routinely review any such reports to determine if auditors have identified control weaknesses or
instances of noncompliance related to the AmeriCorps program. As a result, control weaknesses
or instances of material noncompliance related to the AmeriCorps program of which the
Commission is not aware may exist and may not be corrected.

        Written Policies and Procedures Related to Follow-up on Deficiencies Noted at
        Subgrantees

The Commission does not have written policies and procedures to ensure that subgrantees correct
deficiencies identified by the Commission. The Commission does specify in the memorandum
issued to the subgrantee what deficiencies must be corrected and when its response to the
Commission is due, but the Commission has not been adequately following up on noted
deficiencies. As a result, subgrantee deficiencies identified may not be properly or timely
corrected.

        Schedule of Planned and Actual Site Visit Dates

The Commission's policies require three site visits during the 15-month grant period. The policy
states that the overview site visit must be conducted within 3-5 months after the program starts,
the Member site visit must be conducted within 2-3 months before the program ends, and the
records review site visit must be conducted in between the overview and Member site visits. The
Commission maintains a schedule of planned dates for site visits for the upcoming six weeks on
a chalkboard; however, no comprehensive schedule for the grant period exists. An increase in
.m
 the number of subgrantees and a lack of a comprehensive schedule of site visits has strained the
   Commission's resources for consistently performing all three site visits for each subgrantee. In
   addition, the site visits completed are sometimes not performed within the specified timeframes,
   and feedback to subgrantees is not always provided on a timely basis.

           Recommendations

   We recommend the Commission focus on measures for improving the effectiveness of its
   evaluation and monitoring of subgrantees as follows:

       Develop and implement procedures to review the subgrantees' financial systems and expense
       documentation during site visits. The Commission should consider tailoring the financial
       management survey included in the Corporation's A Reference Manual for Commission
       Executive Directors and Members (pages 5-34) for use during site visits in assessing
       subgrantees' financial systems.

       Develop and implement procedures to maintain Member surveys obtained during the
       Member site visit and documentation of specific records reviewed, in the site visit file for
       each subgrantee.

       Require subgrantees to submit OMB Circular A-133 or other audit reports once the final
       reports are issued, where applicable. The Commission should review these reports,
       determine if corrective action relevant to the AmeriCorps grant is needed, and develop
       procedures to ensure necessary corrective action occurs timely and adequately addresses the
       issues.

       Develop and implement formal policies and procedures to ensure specific, timely follow up
       is made and adequate corrective actions are taken when deficiencies are noted by the
       Commission during site visits.

       Maintain a clear, concise schedule of site visits to be performed during the grant period and a
       record of when site visits are performed. The Executive Director of the Commission should
       monitor the Commission's progress towards completing the scheduled site visits. The
       Commission should reconsider the allocation of its resources in light of its staffing situation,
       the number of subgrantees, and an assessment of risk for each subgrantee, to improve the
       effectiveness of its subgrantee evaluation and monitoring procedures. The Commission may
       also want to revise its site visit policy to reduce the number of visits to low risk subgrantees,
       or contract out selected site visits to the Missouri State Auditors' office or others.


   Providing Technical Assistance

   The Commission has adequate controls in place to provide reasonable assurance that training and
   technical assistance is made available and provided to subgrantees. Procedures are in place at
   the Commission to (1) identify training and technical assistance needs of subgrantees through
   discussions with program directors during quarterly training sessions, site visits, quarterly
   progress reports and a needs assessment survey; (2) notify subgrantees of training programs; and
   (3) provide needed training to subgrantees. We identified no significant areas for improvement
   within this process.
This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Missouri Community Service Commission, and the United States Congress and is not intended to
be and should not be used by anyone other than these specified parties.
                                 Commission Funding                           Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding over
the past three program years. We were unable to agree the funding amounts to the Commission's
FSRs for (a) 1998-99 because the final FSR for the program year had not been completed at the
time of field work and (b) previous program years because those FSRs had been prepared on a
cumulative, not program year, basis.


         Funding Source and Type

         CNS Formula Grant Funds

         CNS Competitive Grant Funds

         CNS Promise Fellows Funds

         CNS Educational Only Awards

         CNS PDAT Funds

         CNS Administrative Funds

         State Matching Funds

           Total Funding


*   Estimated
                           Commission Funding                         Appendix A




                   Corporation for National Service
                           Funding to the
               Missouri Community Service Commission
                             1996-1997
I

         I                                   -                   I
     Formula       Competitive   Learn and   PDAT         All Other
      Funds          Funds         Serve     Funds         Funds
                                  Funds
    $1,366,488      $1,184,573      $0       $72,373       $92,047




        v              v            v           v            v
I


       Total Corporation Funds Available to the Commission
                           $2,715,481




                    Funds Awarded to Subgrantees
                            $2,551,061




           Formula
          Subgrantees                           Subgrantees
           $1,366,488                            $1,184,573
        # of subgrantees                      # of subgrantees
                                                      3
                                                  # of sites
                            Commission Funding                                          Appendix A




                     Corporation for National Service
                             Funding to the
                 Missouri Community Service Commission
                               1997-1998
I                                                                                   I
           I               I                I
       Formula         Competitive      Learn and        PDAT           All Other
        Funds            Funds            Serve          Funds           Funds
                                         Funds
     $1,335,081        $1,284,288          $0           $1 19,738       $180,042




           v               v                v               v              v

         Total Corporation Funds Available to the Commission
                             $2,919,149




                       Funds Awarded to Subgrantees
                               $2,705,274


            .                          Competitive
        Formula                                                       Educational
      Subgrantees                      Subgrantees                    Award Only
      $ 1,335,081                       $1,284,288                    Subgrantees
    # of subgrantees                 # of subgrantees                   $85,905
            7                                4                      # of subgrantees
        # of sites                       # of sites                         4
           17                                                           # of sites
                                                                           23
                        Commission Funding                                   Appendix A




               Corporation for National Service
                       Funding to the
           Missouri Community Service Commission
                         1998-1999

      I                I     --       I            I             I
 Formula           Competitive    Learn and     PDAT         All Other
  Funds              Funds          Serve       Funds         Funds
                                   Funds
 $908,3 12                           $0         $60,740       $87,006




                       +             v             v            v

   Total Corporation Funds Available to the Commission
                       $1,997,922
                                                                         -



                   Funds Awarded to Subgrantees
                           $1,877,466




    Formula                    Competitive
  Subgrantees                  Subgrantees                Promise Fellows
   $ 908,312                    $941,864                    Subgrantees
# of subgrantees             # of subgrantees                 $27,290
        9                            5                    # of subgrantees
    # of sites                   # of sites
                                    44
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (I) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; cash management; eligibility; matching; period of
availability of Corporation funds; procurement, suspension and debarment; subrecipient
monitoring; and reporting by the Commission to the Corporation. We then interviewed key
Commission personnel to assess the Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission.

Administering the Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration and whether the
    Commission has a properly constituted membership;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, enrollment forms and exit forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We also
determined whether the Commission had implemented the Web Based Reporting System
(WBRS).

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A-1 33 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgrnentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to provide technical assistance to subgrantees and other entities in planning
    programs, applying for funds, and implementing and operating programs;

    determine whether a process is in place to identify training and technical assistance needs;
    and

    determine whether training and technical assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year to
ensure they properly related to training activities that were made available to all subgrantees.
Me1 Carnahan
 Governor
                                 MISSOURI.
                                      D E P A R T M E N T OF E C O N O M I C   L~EVELOPMENT
                                                                                                     Appendix C

                                                                                                          Joseph L. Driskill
                                                                                                              Director




                                                 March 10,2000



    Luise S. Jordan, Inspector General
    Corporation for National Service
    1201 New York Avenue, N W
    Washington, DC 20525

    Re:        Missouri Community Service Commission
               Response to Survey Findings

    Dear Mr. Jordan:

             Thank you for the opportunity to respond to the findings and
     recommendations contained within this report. I would also like to take this
     opportunity to recognize and applaud the outstanding efforts of KPMG in performing
     the fieldwork for this pre-audit survey. In large part due to their open and cooperative
     methods, this office was able to begin implementation of necessary corrective action
     and continuous improvement measures immediately following the actual fieldwork in
     November 1999.

               The following is our response to each of the findings contained within the
     report.

     Finding #I: Selection oficiuls do not constder the adequacy of the applicants'financial
     systems during the Cornrnissio?z'ssubgrantee selection process.

     Response: Substantially agree.
     Action: A financial management survey was developed and has been disseminated to
             all new applicants for the 2000-2001 application process. Commission staff
             will use survey responses initially to assess the ability of the organization to
             comply with federal regulations. Policies and procedures will be developed to
             allow staff to use this survey as a tool to assess "riskn as discussed in Findings
             #7-8 and #11 below.

     Finding #2: Lack of Formal Con~7ictoflnterest Statew~ents

     Response: Substantially agree.



P.O.Box 1157      301 W. High, Rm. 680       Jefferson City, MO 65102-1157                 Homepage:www.ecodev.state.mo.us
                           ( 5 7 3 ) 751-4962                                   Fax ( 5 7 3 ) 751-7258
Luise S. Jordan, Inspector General
March 10, 2000                                                           Appendix C
Page 2 of 4


Action: Sample conflict of interest forms received from the Corporation for National
        Service in November 1999 were implemented by the Commission prior to
        the 2000 proposal review process. These conflict of interest forms will be
        used for all future AmeriCorps proposal reviews.

Finding #3: Lack of Review of Matching and Earmarking Requirements
Finding #4: Timeliness of Receipt of Financial Status Reports
Finding #T: Missing FSRs, Supporting Documentationfor Expenditures and Programmatic
Progress Reports

Response: Substantially agree.
Action: The Commission has been aware of these issues for some time. Web-based
        reporting is being implemented and will allow for closer monitoring of these
        issues. Policies and procedures will be revised to both strengthen the
        Commission's monitoring of subgrantee documentation and reporting
        requirements, and to require all subgrantee reimbursements to be withheld if
        any reports, responses or other information are past due.

Finding #6: Noncompliance with the Suspension and Debarment ComplianceRequirement

Response: Substantially agree.
Action: Both Missouri and Federal suspension and debarment lists have been
        identified. The Commission has initiated procedures that ensure, at each
        stage of the grant application process, all organizations will be checked against
        both the Missouri and Federal suspension and debarment lists. The internal
        grant review will be revised to include a notation that the applicant does or
        does not appear on either of these lists as of the date indicated by the staff
        member performing that portion of the assessment.

Finding #7: Review of Subgrantees' Financial Systems and Expense Documentation During
Site Visits
Finding #8: Maintenance of Supporting Documentation and Documentation of Records
Obtained and Reviewed During Site Visits

Response: Substantially agree.
Action: The Commission's "Records Review Checklist" used by staff during-
        monitoring visits is currently being revised to require more accurate and
        specific review of the subgrantees' financial and personnel systems, as well as
        to document action taken by the subgrantee in response to findings from
        previous Commission monitoring visits. Risk assessment procedures as
        discussed in response to Findings #1 and #I1 will be used to determine the
        depth of the documentation review required for each subgrantee for each
        program year.
                                          C.2
Luke S. Jordan, Inspector General
March 10,2000                                                             Appendix C
Page 3 of 4



Finding #9: Review of OMB Circular A-133 or Other Audit Reportsborn Subgrantees

Response: Agree only t o the extent that the Commission's written procedures are not
          clearly defined regarding collection and review of audit reports from
          subgrantee organizations. Copies of A-133 audit reports for all subgrantees
          from which they were required are currently on file with the Commission
          and are maintained for the appropriate period of time. The audit report
          for the subgrantee at issue in this finding had not been finalized at the time
          of the survey and was not received in this office until after December 31,
              1999.

Action: The collection of audit reports is clearly identified as a component of the
        Records Review Site Visit. However, in recognition of varying audit
        schedules for subgrantee organizations, a more regular or semi-annual review
        designed to coincide with programmatic progress reporting will be included
        in staff policies and procedures.

Finding #lo: Written Policies and Procedures Related to Follow-up on Deficiencies Noted
at Subgrantees

Response: Substantially agree.
Action: Follow up action has been or is being taken on all site visits and other noted
        deficiencies noted since June 1999. As an interim tracking mechanism, the
        Commission's 6-week calendar now includes reminders of due dates for
        responses to noted deficiencies, report due dates and other required
        documentation. These efforts have allowed staff to address past-due reports
        and responses in a more immediate manner. More permanent policies and
        procedures will be developed and implemented and will include provisions
        for withholding subgrantee reimbursements or the suspension of the grant for
        failure to comply with any grant requirement (reports, responses, compliance
        issues or other materials).

Finding #11: Schedule of Planned and Actual Site Visit Dates

Response: Substantially agree.
Action: With the assistance and input of staff, the Executive Director and current
        subgrantees, a fair and manageable site visit schedule will be developed. This
        will include an ongoing assessment of risk for each subgrantee that will
        determine the frequency and depth of monitoring required. Policies and
        procedures will be revised to define specific steps to strengthen the entire
        process from risk assessment through follow-up.
Luke S. Jordan, Inspector General
March 10, 2000                                                          Appendix C
Page 4 of 4


        Additional staff requested through State budget processes will also considerably
alleviate the limitations of this Commission in achieving 100°/o compliance for all
subgrantees. The Missouri Community Service Commission will work closely with
the Corporation for National Service in the coming months to implement all necessary
improvement measures.

       If you have any questions regarding this response, please feel free to contact
Mark Rehagen, Director of Financial Systems at 573~751-4996,or Curtis Hendricks,
Executive Director of the Community Service Commission at 573-751-7488. Thank
you.

                                            Very truly yours,



                                            David D. Mitchem
                                            Deputy Director

c:      Mark Rehagen
        Curtis Hendricks
MEMORANDUM
                                                             AmeriCorps National Service   C 0R P0RATI0N

                                                                                           FOR N A T I O N A L
TO:           Luise S. Jordan       c



THRU:

FROM:         Deborah R.
              Bruce H. Cline

DATE:          March 10, 2000

SUBJECT:      Response to the Draft Audit Report 00-17, Pre-Audit Survey of the
              Missouri Community Service Commission

We have reviewed the draft report on your pre-audit survey of the Missouri Community
Service Commission. Given the nature of the report, this response serves as our proposed
management decision. We note that your preliminary assessment recommends a full
scope audit at the Commission for program years 1995-96 through 1998-99, with a focus
on grant administration and subgrantee monitoring. The draft audit report includes a
recommendation to the Corporation. We are providing the following response to that
recommendation. The Inspector General recommended:

        "Additionally, we (the Inspector General) recommend that the Corporation follow
        up with the Commission to determine that appropriate corrective actions are put
        into place to address the conditions reported herein, and that the Corporation
        consider these conditions in its oversight and monitoring of the Missouri
        Community Service Commission."

Some of the conditions cited in the "results in brief' section of the report include
concerns related to the lack of assessment of applicants' financial systems during the
selection process and the lack of formal conflict of interest statements. Additional
concerns relate to effective monitoring of adherence to policies and procedures and the
Commission's on-site monitoring procedures.

Given our limited program administration resources, we developed a plan to assess State
Commission administration functions. Over a three-year period, we will be reviewing
each of the state commissions. As part of our review of Missouri, we will determine
whether the Commission has put appropriate corrective actions in place for conditions
noted in the pre-audit survey that your office has issued.
                                                                                            1201 New York Avenue. NW
In addition to this scheduled review, we will also request that the Missouri Commission     Washington. DC 20525
                                                                                            Tele~hone2024065000
provide semi-annual reports on their actions to correct conditions cited in the OIG pre-
audit survey.                             D. 1
                                                                                            Getting Things Done.
                                                                                            AmeriCorp. National Senrice
                                                                                            Learn and Serve America
                                                                                            National Senior Service Corps
